Report No. D-2010-RAM-022      September 30, 2010




    U.S. Army Corps of Engineers Civil Works
               Pittsburgh District
          Recovery Act Implementation
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/recovery/index.html or contact the Secondary
Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
CW                            Civil Works
FAR                           Federal Acquisition Regulation
FBO                           Federal Business Opportunities
GSA                           General Services Administration
HQ                            Headquarters
HUBZone                       Historically Underutilized Business Zone
NEPA                          National Environmental Policy Act
OMB                           Office of Management and Budget
USACE                         U.S. Army Corps of Engineers
                               INSPECTOR GENERAL
                              DEPARTMENT OF DEFE NSE
                                 400 ARMY NAVY DR IVE
                            ARLINGTON, VIRG INIA 22202-4704

                                                                      September 30, 2010

MEMORANDUM FOR COMMANDING GENERAL, U.S. ARMY CORPS
                 OF ENGINEERS
              COMMANDER, U.S. ARMY CORPS OF ENGINEERS,
                 PITTSBURGH DISTRICT

SUBJECT: U.S. Army Corps of Engineers Civil Works Pittsburgh District Recovery Act
          Implementation (RepOit No. D-2010-RAM-022)

We are providing this repOit for your information and use. We performed the audit in
response to a congressional request. We considered management comments on a draft
of the report in preparing the final report.

Comments on the draft of this report conformed to the requirements of DOD
Directive 7650.3 and left no unresolved issues. Therefore, we do not require any
additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 601-5868.



                                             p~O. /71~
                                             Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Defense Business Operations
Report No. D-2010-RAM-022 (Project No. D2009-D000FH-0182.001)             September 30, 2010


              Results in Brief: Audit of the U.S. Army Corps
              of Engineers Civil Works Pittsburgh District
              Recovery Act Implementation
                                                          •   USACE Pittsburgh did not consistently
What We Did                                                   report projects on the USACE
Our objective was to determine whether the                    Headquarters Web site because it did not
U.S. Army Corps of Engineers (USACE)                          have a formal methodology in place.
Civil Works (CW) implemented Public                       •   USACE Pittsburgh did not always
Law 111-5, “American Recovery and                             include required Federal Acquisition
Reinvestment Act of 2009” (Recovery Act),                     Regulation clauses in the solicitation or
February 17, 2009, in accordance with the                     contract because it did not have specific
requirements in the Recovery Act and the Office               guidance listing the Federal Acquisition
of Management and Budget Memorandum                           Regulations clauses required for
M-09-15, “Updated Implementing Guidance for                   Recovery Act contracts.
the American Recovery and Reinvestment Act
of 2009,” April 3, 2009. Specifically, our             What We Recommend
objective was to assess the planning, funding,         We recommend that the Commanding General,
project execution, and tracking and reporting of       U.S. Army Corps of Engineers, Pittsburgh
Recovery Act projects to ensure USACE CW               District:
efforts facilitated accountability and                    • develop a consistent methodology for
transparency.                                                  reporting its projects by each contract,
                                                          • provide training and guidance to the
We nonstatistically selected three USACE                       contracting staff that outlines the
Pittsburgh District projects for review:                       specific Recovery Act contract clauses
Emsworth Locks and Dams, Mahoning Creek                        and when they are required to be
Lake, and Upper Ohio Navigation Study. The                     included in a solicitation or award, and
three projects had several planned or already             • modify the ongoing Recovery Act
awarded contracts funded under the Recovery                    contracts with required Federal
Act.                                                           Acquisition Regulation clauses.

What We Found                                          Management Comments and
USACE complied with many of the Recovery               Our Response
Act requirements for the three nonstatistically
selected projects. However, USACE could have           The Commander, U.S. Army Corps of
improved reporting transparency and ensured            Engineers, Pittsburgh District stated that they
that it included all required clauses in the           would report new Recovery Act projects by
contracts.                                             contract, continue to provide training on
                                                       required clauses, and modify the ongoing
Specifically:                                          Recovery Act contracts. His comments to the
   • USACE Headquarters incorrectly                    recommendations were responsive. Please see
       reported dollar values for the Emsworth         the recommendations table on the back of this
       project on its Web site because of human        page.
       error in consolidating the numbers.


                                                   i
Report No. D-2010-RAM-022 (Project No. D2009-D000FH-0182.001)   September 30, 2010

Recommendations Table

        Management                 Recommendations         No Additional Comments
                                  Requiring Comment               Required
Commander, U.S. Army Corps of                             1, 2, 3
Engineers, Pittsburgh District




                                         ii
Table of Contents

Introduction                                                       1

      Objectives                                                   1
      Background                                                   1

Finding. Implementation of the Recovery Act Requirements           4

      Recommendations, Management Comments, and Our Response       9

Appendices

      A. Scope and Methodology                                     12
             Prior Coverage                                        13
      B. Project Execution: Pre-award and Award                    14
      C. Solicitation/Contract FAR Clauses as of August 31, 2009   15

Management Comments

       U.S. Army Corps of Engineers, Pittsburgh District           16
Introduction
Objectives
Our objective was to determine whether the U.S. Army Corps of Engineers (USACE)
Civil Works (CW) implemented Public Law 111-5, “American Recovery and
Reinvestment Act of 2009 (Recovery Act),” February 17, 2009, in accordance with the
requirements in the Act and the Office of Management and Budget (OMB) Memorandum
M-09-15, “Updated Implementing Guidance for the American Recovery and
Reinvestment Act of 2009,” April 3, 2009. Specifically, our objective was to assess the
planning, funding, project execution, and tracking and reporting of Recovery Act projects
to ensure USACE CW efforts facilitated accountability and transparency for the three
nonstatistically selected projects in the USACE CW Pittsburgh District (USACE
Pittsburgh). See Appendix A for a discussion of our scope and methodology.

Background
In passing the American Recovery and Reinvestment Act of 2009, Congress provided
supplemental appropriations to preserve and create jobs; promote economic recovery;
assist those most affected by the recession; provide investments to increase economic
efficiency through technological advances in science and health; and invest in
transportation, environmental protection, and other infrastructure. The Recovery Act also
provided unprecedented efforts to ensure the responsible distribution of funds for the
Act’s purposes and to provide transparency and accountability of expenditures so that the
public would know how, when, and where tax dollars were spent. Further, the Recovery
Act stated that the President and the heads of Federal departments and agencies were to
manage and expend the funds made available in the Act to achieve its purpose, which
included commencing expenditures for activities as quickly as possible, consistent with
prudent management.

USACE Recovery Act Funded Appropriations
Under the Recovery Act, Congress appropriated $4.6 billion to USACE CW for
Investigations, Construction, Operations and Maintenance, Regulatory Program,
Formerly Utilized Sites Remedial Action Program, and Mississippi River and Tributaries.
Table 1 provides a breakdown of the amount of Recovery Act funds provided for each
appropriation.




                                            1
               Table 1. USACE Recovery Act Civil Works Programs
                     Appropriations                             Amount (in billions)
Investigations                                                               $0.025
Construction                                                                 $2.000
Operations and Maintenance                                                   $2.075
Regulatory Program                                                           $0.025
Formerly Utilized Sites Remedial Action Program                              $0.100
Mississippi River and Tributaries                                            $0.375
Total: USACE Recovery Act Civil Works Programs                               $4.600

Nonstatistical Selection of Projects
We nonstatistically selected three USACE Pittsburgh projects for review: Emsworth
Locks and Dams, Mahoning Creek Lake, and Upper Ohio Navigation Study. See
Appendix A for specific sample selection criteria. For the three projects, USACE had
solicited or awarded 10 contracts funded under the Recovery Act as of August 31, 2009.
We reviewed the following three projects:

   •   Emsworth Locks and Dams, Ohio River, Pennsylvania: USACE Pittsburgh
       personnel stated that the Emsworth Locks and Dams were originally built in the
       early 1900s and consisted of two dams: the Main Channel Dam and the Back
       Channel Dam. USACE Pittsburgh personnel will award a Recovery Act
       construction contract for stabilizing the Back Channel Dam abutment with
       Recovery Act construction appropriations.

   •   Mahoning Creek Lake, Pennsylvania: USACE Pittsburgh personnel stated that
       Mahoning Creek Lake is a multi-purpose reservoir that is mainly for flood
       reduction with some recreational use. USACE Pittsburgh personnel identified
       backlogged maintenance and will fund seven contracts with Recovery Act
       Operations and Maintenance appropriations. Specifically, USACE Pittsburgh
       personnel will fund contracts with Recovery Act funds for dam concrete repairs,
       grounds keeping and maintenance, shoreline management, replacing an access
       road chain link guardrail, replacing unsafe playground equipment, replacing a
       furnace, and re-roofing the resource manager’s office.

   •   Upper Ohio Navigation Study, Pennsylvania: The Upper Ohio Navigation
       Study is a feasibility study to examine modernization alternatives for the three
       locks and dam facilities on the Ohio River in Pennsylvania to determine the most
       cost effective and environmentally acceptable alternative. The study includes
       Emsworth, Dashields, and Montgomery locks and dams. USACE Pittsburgh
       personnel awarded two Recovery Act contracts with Recovery Act investigation
       appropriations.




                                           2
Review of Internal Controls
We determined that internal control weaknesses existed as defined by DOD
Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,” January 4,
2006. USACE Headquarters (HQ) personnel did not have controls in place to accurately
report project estimates on its Recovery Act Web site. Although we identified this
internal control weakness, we are not recommending corrective action because USACE
HQ personnel revised the project estimates on its Recovery Act Web site on January 5,
2010. USACE Pittsburgh personnel did not have a formal methodology for reporting its
projects by each contract. In addition, USACE Pittsburgh personnel did not provide
training and guidance to the contracting staff outlining the specific Recovery Act contract
clauses required to be included in a solicitation or award. Implementing
Recommendations 1, 2, and 3 will improve reporting transparency and improve
contractor accountability for all Recovery Act requirements. We will provide a copy of
the report to the senior official responsible for internal controls in the U.S. Army Corps
of Engineers.




                                            3
Finding. Implementation of the Recovery Act
Requirements
USACE personnel complied with many of the Recovery Act requirements for the three
projects. 1 Specifically, USACE Pittsburgh personnel properly justified the projects, met
additional OMB Recovery Act requirements, distributed and appropriately designated
Recovery Act funds, completed applicable environmental studies, and met the Recovery
Act energy efficiency and green building requirements.

However, USACE personnel could have improved reporting transparency and ensured
that they included all required clauses in contracts. Specifically, USACE HQ personnel
incorrectly reported estimated dollar values for the Emsworth project on its Web site.
This occurred because of human error in consolidating the numbers. USACE Pittsburgh
personnel did not consistently report projects to the public on the USACE HQ Web site
because USACE Pittsburgh personnel did not have a formal methodology in place. In
addition, USACE Pittsburgh personnel did not always include required Federal
Acquisition Regulation (FAR) clauses in the solicitation or contract because USACE
Pittsburgh personnel did not have specific guidance listing the FAR clauses required for
Recovery Act contracts. As a result, USACE Pittsburgh did not fully meet the
transparency or solicitation and contract preparation requirements of the Recovery Act.

Compliance with the Recovery Act
USACE Pittsburgh personnel complied with many of the Recovery Act requirements for
the three projects. Specifically:

    •   Project Justification. USACE Pittsburgh personnel selected work for the three
        Recovery Act projects in accordance with OMB guidance. OMB Memorandum
        M-09-15, “Updated Implementing Guidance for the American Recovery and
        Reinvestment Act of 2009,” April 3, 2009, consistent with the President’s
        March 20, 2009, Memorandum, states that departments and agencies should
        support projects that have a demonstrated or potential ability to achieve long-term
        public benefits by investing in an improved quality of life, environmental
        protection, and other infrastructure that will provide long-term economic benefits.

        USACE Pittsburgh personnel properly selected its Recovery Act projects. For
        example, USACE personnel classified Emsworth locks and dam system as a Dam
        Safety Action Class I classification, which meant it was unsafe and critically near
        failure. Therefore, USACE Pittsburgh personnel selected this project to achieve
        long-term public benefits by investing in infrastructure that will provide long-term
        economic benefits, improved quality of life, and support environmental protection
        efforts in accordance with the OMB guidance. Further, USACE Pittsburgh


1
 The three projects are Emsworth Locks and Dams, Mahoning Creek Lake, and Upper Ohio Navigation
Study.


                                                4
     personnel met the environmental protection requirements of OMB Memorandum
    M-09-15, section 1.6. Specifically, USACE Pittsburgh personnel used Recovery
    Act funds to support shoreline management work performed at Mahoning Creek
    Lake, which is an environmental stewardship project. USACE Pittsburgh
    personnel also generated the Upper Ohio Navigation Study to determine what
    modernization alternatives would be most environmentally acceptable for the
    Ohio River locks and dam facilities in Pennsylvania.

•   Additional OMB Recovery Act Requirements. USACE Pittsburgh personnel
    planned contracting actions in accordance with additional OMB requirements.
    Specifically, section 6.1 of OMB Memorandum M-09-15 states that because of
    the critical importance of the Recovery Act and the funds it will make available to
    stimulate the American economy, heightened management attention on
    acquisition planning is required. The following details several of the additional
    OMB requirements and USACE Pittsburgh personnel’s actions to ensure those
    requirements were followed. Appendix B lists the criteria tested and the results of
    tests.

    o Agencies should mitigate schedule, cost, and performance risk. USACE
      Pittsburgh personnel met this OMB requirement. Specifically, USACE
      Pittsburgh personnel’s actions will help mitigate these risks by awarding, or
      intending to award, Recovery Act contracts for the three projects as firm-fixed
      price contracts. A fixed-price contract places upon the contractor maximum
      risk and full responsibility for all costs and resulting profit or loss, thereby
      allowing the Government to lessen its schedule, cost, and performance risks in
      accordance with the OMB requirement.

    o Agencies should obtain maximum practicable competition. USACE
      Pittsburgh personnel met this OMB requirement. Specifically, for the five
      new contracts we reviewed, USACE Pittsburgh personnel competed one
      contract and were in the process of soliciting competition for the other four
      contracts. In addition, the five previously awarded contracts we reviewed
      were all competed at the time of the award.

    o Agencies should maximize opportunities for small businesses to compete for
      agency contracts and to participate as subcontractors. USACE Pittsburgh
      personnel met this OMB requirement. Specifically, 8 of the 10 contracts we
      reviewed that USACE Pittsburgh personnel awarded or intend to award were
      set aside for small businesses or Historically Underutilized Business Zones
      (HUBZones).

•   Tracking and Distribution of Recovery Act Funding. USACE Pittsburgh
    personnel distributed and appropriately designated Recovery Act funds for the
    applicable products and services in its accounting system as well as in the contract
    solicitations and awards. OMB Memorandum M-09-15, section 1.2, states that
    funds are to be awarded and distributed in a prompt, fair, and reasonable manner.


                                         5
    USACE Pittsburgh personnel complied with OMB guidance. Specifically,
    USACE Pittsburgh personnel stated that it received initial Recovery Act funding
    in May 2009 for the three projects, a few months after the Recovery Act was
    implemented. As described above, the contracts were either competitively
    awarded or were in the process of being competitively awarded at the time of our
    review. After initial funding, USACE Pittsburgh personnel stated they performed
    weekly reviews and prepared budget reports to request incremental Recovery Act
    funding.

    OMB Memorandum M-09-15, section 4.3, states that agencies must not
    co-mingle Recovery Act funds with other funds. In addition, agencies must
    establish an internal fund code within their financial systems and separately track
    apportionments, allotments, obligations, and gross outlays to Recovery Act funds.
    USACE Pittsburgh personnel complied with this OMB requirement. Specifically,
    the funding amounts received for the three projects matched the Funding
    Authorization Documents and Work Allowances and each had a Recovery Act
    designation. In addition, all of the solicitations or contracts reviewed for the three
    projects specified which products or services were funded under the Recovery
    Act. These controls will help enable USACE Pittsburgh personnel to
    appropriately track the Recovery Act funding received through its internal
    funding documents and project solicitations or contracts.

•   National Environmental Policy Act (NEPA) Requirements. USACE Pittsburgh
    personnel completed the applicable NEPA study or obtained a waiver for each
    project. Section 1609 of the Recovery Act states that NEPA protects public
    health, safety, and environmental quality by ensuring transparency,
    accountability, and public involvement in Federal actions and in the use of public
    funds. USACE Pittsburgh personnel appropriately obtained a NEPA study waiver
    for the Emsworth project. Specifically, it obtained a Finding of No Significant
    Impact that provides a summary of the environmental assessment and concludes
    there will not be any significant adverse impacts on the environment. The waiver
    met the Code of Federal Regulations, title 40, part 1508.13, requirements. A
    NEPA study was not conducted or required for the Mahoning Creek Lake project
    because the work is not considered to significantly affect the environment. In
    addition, for the Upper Ohio Navigation Study, USACE Pittsburgh personnel
    appropriately included a NEPA environmental assessment for one contract
    awarded under the study. The other contract awarded under this study was an
    environmental study, and the environment will not be changed during the study.

•   Efficiency and Green Building Requirements. USACE Pittsburgh personnel met
    the Recovery Act energy efficiency and green building requirements. OMB
    Memorandum M-09-15 states that agencies should select projects invested in
    environmental protection that will provide long-term economic benefits.
    Although there are no Recovery Act-specific FAR clauses related to addressing
    energy efficiency and green building requirements, USACE Pittsburgh personnel
    included FAR clauses in some of its solicitations and contracts that addressed



                                          6
       OMB guidance. For example, USACE Pittsburgh personnel included
       FAR 52.223-14, “Toxic Chemical Release Reporting,” FAR 52.223-15,
       “Energy Efficiency in Energy-Consuming Products,” and FAR 52.237-2,
       “Protection of Government Buildings, Equipment, and Vegetation.”


Reporting Estimated Funding Allocations on the USACE
HQ Web Site
USACE HQ personnel reported unsupported funding estimates to the public on the
USACE HQ Recovery Act Web site. Therefore, USACE personnel did not meet the
Recovery Act transparency requirements. Specifically, the USACE HQ Web site
reported unsupported estimated costs for three of the four subprojects under the
Emsworth project. The Web site overestimated the Emsworth projects by $14.4 million
or 176 percent more than the actual Emsworth estimate.

USACE Pittsburgh and USACE HQ personnel agreed the estimates reported on the
USACE HQ Web site were incorrect. USACE Pittsburgh personnel provided us the same
documentation it submitted to USACE HQ, which supports the actual Emsworth
estimates. USACE HQ personnel stated that the incorrect estimates were a result of
human error in the process of consolidating the information to report it on the Web site.
Table 2 lists the supported estimates provided by USACE Pittsburgh personnel along
with the estimates reported on the USACE HQ Recovery Act Web site.


                               Table 2. Emsworth Project Estimates
                                                                                Unsupported
                                                              Estimates from
                                                                                   Percent
                                         Estimates from         USACE HQ
        Emsworth Project                                                         Increase in
                                       Pittsburgh District   Recovery Act Web
                                                                                  Estimate
                                                                   Site

 Stabilizing one dam gate bay at the
                                        $ 4,000,000           $4,000,000            0
          back channel dam
 Stabilizing one dam gate bay at the
                                        $ 3,000,000           $5,000,000          166
          back channel dam
   Award contract to stabilize the
    back channel abutment and           $ 5,000,000           $7,000,000          140
    complete the service bridge
  Stabilize two dam gate bays at the
                                        $ 7,000,000          $17,425,000          249
         back of channel dam
                Total                  $19,000,000           $33,425,000          176

USACE HQ personnel were responsible for consolidating the estimates from all of the
districts and reporting them on its Web site. However, USACE HQ personnel did not
accurately consolidate and report the estimates for the USACE HQ Recovery Act Web
site. As a result, the Emsworth projects were overestimated, and the public was not
provided with accurate information.


                                                7
During the audit, we informed USACE HQ of the error; USACE HQ personnel stated
they would confirm the numbers with district personnel and update the Web site
accordingly. USACE HQ personnel updated Recovery Act project estimates and project
descriptions on January 5, 2010, on the USACE HQ Recovery Act Web site with data
provided by USACE Pittsburgh personnel. Therefore, we will not make any
recommendations related to this issue.

Methodology for Reporting Projects on the USACE HQ
Web Site
USACE Pittsburgh personnel did not consistently report projects to the public on the
USACE HQ Web site, which reduced the transparency of the projects to the public.
Section 1.2 of OMB Memorandum M-09-15 requires that Federal agencies ensure that
the use of all Recovery Act funds is transparent to the public. Because USACE
Pittsburgh personnel did not consistently report projects, the projects were not as
transparent as they could have been. For example, USACE Pittsburgh personnel
provided one record for the Upper Ohio Navigation Study when it anticipated that three
separate contracts would be awarded for this effort. They also provided one record for
the replacement of the resource manager office’s furnace and roof at Mahoning Creek
Lake when they anticipated that two separate contracts would be awarded for these
efforts. Conversely, USACE Pittsburgh personnel provided three records for stabilizing
dam gate bays and the left abutment at Emsworth when they anticipated there would only
be one contract awarded for this effort.

There is no specific formal guidance for reporting the projects and estimated dollars
on the USACE HQ Web site, and USACE Pittsburgh personnel did not have a consistent
methodology for reporting projects on the USACE HQ Web site. The FAR does provide
special instructions to contracting officers related to the solicitation of offers and awards
of contracts under the Recovery Act. Specifically, the FAR requires a clear and
unambiguous description of supplies and services at the Federal Business Opportunities
(FBO) Web site to support public transparency and understanding of the procurement.
Because USACE Pittsburgh personnel did not use a consistent methodology for reporting
projects on the USACE HQ Web site, there is no direct correlation to the solicitations
announced on the FBO Web site. It could be difficult for the public and potential
bidders to determine whether the projects listed on the USACE HQ Web site have been
solicited and awarded if those projects do not match those announced and awarded on
the FBO Web site.

USACE Pittsburgh personnel should develop a formal methodology for reporting its
projects by each contract to ensure consistency and transparency to the public, as well as
to potential bidders.




                                              8
Including Required Federal Acquisition Regulation
Clauses in the Solicitation or Contract
USACE Pittsburgh personnel included required FAR clauses in the solicitations or
contracts in 38 instances; however, USACE personnel did not include required FAR
clauses in 10 instances as of August 31, 2009. For example, FAR 52.203-15,
“Whistleblower Protection Under the American Recovery and Reinvestment Act of
2009,” was not included in one of the Mahoning Creek Lake contracts. During the audit,
we informed USACE Pittsburgh personnel of the FAR clauses that were not included.
USACE Pittsburgh personnel added clauses to the contract modifications in two
instances; however, eight instances remain. Appendix C lists the specific FAR clauses
that were or were not included.

USACE Pittsburgh personnel did not have its own guidance listing the specific FAR
clauses that are required for each Recovery Act contract. Additionally, USACE
Pittsburgh personnel stated that they did not include some FAR clauses because they
originally thought some FAR clauses were not required because the contracts did not
meet a dollar threshold. However, the FAR requires Recovery Act funded projects
contain the clauses regardless of the dollar value. Our recommendation will help ensure
that USACE Pittsburgh personnel include all required FAR clauses in Recovery Act
contracts.

Recommendations, Management Comments, and Our
Response
We recommend that the Commander, U.S. Army Corps of Engineers, Pittsburgh
District:

       1. Develop a consistent methodology for reporting its projects by each
contract to ensure consistency and transparency to the public, as well as to potential
bidders.

Management Comments
The Commander, USACE Pittsburgh District stated that it used policy and guidance
published by OMB and USACE HQ when it developed the list of Recovery Act projects
for the USACE HQ Web site. The published policy and guidance did not identify the
requirement for a one-to-one correlation between projects listed on the USACE HQ Web
site and contracts to be awarded. If USACE Pittsburgh receives additional Recovery Act
projects, it will follow a consistent reporting methodology.

Our Response
The Commander, USACE Pittsburgh District, comments are responsive, and no
additional comments are required. The intent to follow a consistent reporting
methodology if additional Recovery Act projects are received satisfies the
recommendation.



                                           9
        2. Provide training and guidance to the contracting staff that outlines the
specific Recovery Act contract clauses and when they are required to be included in
a solicitation or award.

Management Comments
The Commander, USACE Pittsburgh District stated that USACE Pittsburgh has trained
its contracting staff on the application of the Recovery Act provisions and clauses in
solicitations and contracts, and it will continue to provide training. In addition, all
USACE Pittsburgh District contracting staff received copies of the Recovery
Accountability and Transparency Board Contract Checklist. This checklist identifies all
of the applicable Recovery Act clauses and provisions. Contract specialists and
contracting officers use this checklist as a guide when preparing and reviewing
solicitations and contracts.

Our Response
The Commander, USACE Pittsburgh District, comments are responsive, and no
additional comments are required.

       3. Modify ongoing Recovery Act contracts so that the contracts include all
required FAR clauses.

Management Comments
The Commander, USACE Pittsburgh District stated that USACE Pittsburgh personnel
have modified or are in the process of modifying several contracts to include the required
FAR clauses. However, the Commander stated that USACE Pittsburgh was not required
to include FAR 52.225-22 on the dam concrete repair contract; therefore, USACE
Pittsburgh will not modify the contract to include that clause. The Commander stated
that USACE Pittsburgh was not required to include that clause because it is applicable
only to solicitations and the contract had been solicited and awarded prior to the
Recovery Act.

In addition, the Commander stated that USACE Pittsburgh did not include any clauses in
the playground equipment contract because it issued that order against or under a General
Services Administration (GSA) contract, and the awardee’s GSA contract shows that “the
contractor has accepted the terms, conditions, and reporting requirements of the
American Recovery and Reinvestment Act (ARRA), and is eligible to fulfill ARRA
orders.” Therefore, the Commander stated that they will not modify the playground
equipment contract.

Our Response
The Commander, USACE Pittsburgh District comments were generally responsive, and
no additional comments are required. We further reviewed FAR 52.225-22 and agree
that USACE Pittsburgh was not required to include this clause in the dam concrete repair
contract because the clause related to the solicitation of the contract. We have removed



                                            10
this as a deficiency from the report. We also further reviewed the playground equipment
contract. We continue to disagree that the FAR did not require USACE Pittsburgh to
include the clauses simply because USACE Pittsburgh awarded the contract under or
against a GSA contract. According to the FAR, entities are required to incorporate the
four clauses, listed in Appendix C, for all contracts. The USACE Pittsburgh contract for
the playground equipment did not include the clauses in the contract or adequately
reference back to the GSA contract clauses. In addition, USACE Pittsburgh personnel
did not have a copy of the GSA contract to ensure that GSA included all required
Recovery Act clauses in the basic contract. However, the contractor has already
completed this contract; therefore, we do not recommend that USACE Pittsburgh modify
the contract.




                                           11
Appendix A. Scope and Methodology
We conducted this audit from August 2009 to June 2010 in accordance with generally
accepted government auditing standards. Generally accepted government auditing
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our conclusions
based on our audit objectives.

Before selecting DOD Recovery Act projects for audit, the Quantitative Methods
and Analysis Division of the DOD Office of Inspector General analyzed all DOD
agency-funded projects, locations and contracting oversight organizations to assess the
risk of waste, fraud, and abuse associated with each. We selected most audit projects and
locations using a modified Delphi technique, which allowed us to quantify the risk based
on expert auditor judgment, and other quantitatively developed risk indicators.

We used additional predictive analytic techniques for two other special cases: (1) projects
performed jointly with State National Guard units in the 50 States, and (2) public works
projects funded directly through USACE. We factored in workload volume, proposed
costs, geographic districts, and USACE districts and regions in evaluating the relative
risk of problems with oversight and completion.

We did not use classical statistical sampling techniques that would permit generalizing
results to the total population because there were too many potential variables with
unknown parameters at the beginning of this analysis. The predictive analytic techniques
employed provided a basis for logical coverage not only of Recovery Act dollars being
expended, but also of types of projects and types of locations across the Military
Services, Defense agencies, State National Guard units, and public works projects
managed by USACE.

We nonstatistically selected three projects from USACE Pittsburgh using the Quantitative
Methods and Analysis Division high-risk rating, and we selected a project from each
appropriation used (Construction, Investigations, and Operation and Maintenance). For
the three projects, USACE personnel solicited or awarded 10 contracts funded under the
Recovery Act as of August 31, 2009. USACE personnel also plan to award two
additional Recovery Act contracts in FY 2010 under the Emsworth and Upper Ohio
Navigation Study projects. These two contracts were not in the solicitation phase as of
August 31, 2009; therefore, we performed limited review over the planning. We met
with USACE Pittsburgh personnel to evaluate the type of work performed under the
Recovery Act and how this work was funded. We reviewed funding documents that
interface with the USACE Financial Management System to trace back to the initial
Recovery Act funding. Further, we reviewed documentation to include solicitations,
Federal procurement Web sites, bid submittals, and contracts to determine whether
USACE Pittsburgh personnel are implementing the Recovery Act and OMB
requirements.


                                            12
Use of Computer-Processed Data
We used computer-processed data obtained from the Federal Procurement Data System,
Excluded Parties List System, Central Contractor Registration System, and the FBO Web
site. To assess the reliability of the data, we compared USACE Pittsburgh contract
information (such as contract selection criteria or description of supplies and services) to
the data contained in these systems. We did not find any discrepancies between the data
sets. We determined that the computer-processed data was sufficiently reliable for the
purposes of this report.

We also relied on computer-processed data obtained from the Corps of Engineers
Financial Management System and the P2 Oracle Financial Analyzer. To assess the
reliability of the data, we compared source documentation (Funding Authorization
Documents and Work Allowances we received from USACE Pittsburgh personnel) to the
computer-processed data in these systems. We did not find any discrepancies between
the data sets. We determined that the computer-processed data was sufficiently reliable
for the purposes of this report.


Prior Coverage
The Government Accountability Office, the Department of Defense Inspector General,
and the Military Departments have issued reports and memoranda discussing DOD
projects funded by the Recovery Act. You can access unrestricted reports at
http://www.recovery.gov/accountability.




                                            13
Appendix B. Project Execution: Pre-award
and Award
                                  Ems-                                                            Mahoning Creek Lake                                                                              Upper Ohio
                                  worth                                                                                                                                                            Navigation
                                                                                                                                                                                                     Study




                                                                                                               Chain Link Guard Rail


                                                                                                                                       Playground Equipment
                                   Abutment Stabilization




                                                                                        Shoreline Management
                                                            Dam Concrete Repairs




                                                                                                                                                                                                   Environmental Study
                                                                                                                Replace Access Road




                                                                                                                                                                                                                         Riverbed Substrate
                                                                                          Grounds Keeping/




                                                                                                                                                                                Manager’s Office
                                                                                                                                                                                Re-roof Resource




                                                                                                                                                                                                                          Characterization
                                                                                                                                                                                                     Batch Plant Sites
                                                                                                                                                              Replace Furnace
                                                                                                                                           Replace Unsafe
                                      Back Channel




Awarded new contract
                                        Y                   N1                             N1                       Y                       Y                 Y                     Y                 N1                    N1

Competed new contract/
                                        Y                   Y                                Y                      Y                       Y                 Y                     Y                   Y                    Y
base contract
Contract awarded at
                                        Y                   Y                                Y                      Y                       Y                 Y                     Y                   Y                    Y
fixed price
Announced award on
https://www.fbo.gov, as                 Y                   Y                                Y                      Y                       Y                 Y                     Y                   Y                    Y
applicable
Verified contractor was not
listed on the Excluded                  Y                   Y                                Y                      Y                       Y                 Y                     Y                   Y                    Y
Parties List System
Included contractor's
                                        Y                   Y                                Y                      Y                       Y                 Y                     Y                   Y                    Y
address in the contract files
Indicated which products or
services are funded under
                                        Y                   Y                                Y                      Y                       Y                 Y                     Y                   Y                    Y
the Recovery Act in the
solicitation/award
Set aside contract award to
small business/HUBZone                 N2                   Y                                Y                      Y                       Y                 Y                     Y                   Y                   N2

1
 Awards are based on a previously awarded contract.
2
 A small business/HUBZone set-aside did not apply to these contract awards.
“Y” means it occurred.
”N” means it did not occur.




                                                                                   14
              Appendix C: Solicitation/Contract FAR
              Clauses as of August 31, 2009
                                                       Ems-                                                                Mahoning Creek Lake                                                                           Upper Ohio
                                                       worth                                                                                                                                                             Navigation
                                                                                                                                                                                                                           Study
FAR Clauses required for the Recovery Act




                                                                                                                                    Chain Link Guard Rail


                                                                                                                                                            Playground Equipment
                                                        Abutment Stabilization




                                                                                                             Shoreline Management
                                                                                      Dam Concrete Repairs




                                                                                                                                                                                                                        Environmental Study
                                                                                                                                     Replace Access Road




                                                                                                                                                                                                                                              Riverbed Substrate
                                                                                                               Grounds Keeping/




                                                                                                                                                                                                     Manager’s Office
                                                                                                                                                                                                     Re-roof Resource




                                                                                                                                                                                                                                               Characterization
                                                                                                                                                                                                                          Batch Plant Sites
                                                                                                                                                                                   Replace Furnace
                                                                                                                                                                Replace Unsafe
                                                           Back Channel


FAR 52.203-15
                                                             Y                        Y                           Y                      Y                       N                 Y                     Y                   Y                    Y
Whistleblower Protection
FAR 52.204-11
Recovery Act Reporting Requirements                          Y                        Y                           Y                      Y                       N                 Y                     Y                   Y                    Y

FAR 52.212-4
Contract Terms and Conditions – Commercial Items                                                                  Y                                              N

FAR 52.212-5 Alt II
Contract Terms and Conditions Required to
                                                                                                                  Y                                              N
Implement Statutes or Executive Orders –
Commercial Items
FAR 52.214-26 Alt I
Audit and Records – Sealed Bidding                           Y                        N                                                  N                                                               N

FAR 52.215-2 Alt I
Audit and Records – Negotiation                                                                                                                                                    N*                                        Y                    Y

FAR 52.222-6
Davis-Bacon Act                                              Y                        Y                                                  Y                                         Y                     Y

FAR 52.225-21
Required Use of American Iron, Steel, and                    Y                        Y                                                  Y                                                               Y
Manufactured Goods
FAR 52.225-22
Notice of Required Use of American Iron, Steel, and          Y                                                                           Y                                                               Y
Manufactured Goods
FAR 52.244-6
Subcontracts for Commercial Items and Commercial             Y                        Y                                                  Y                                         N*                    N                   Y                    Y
Components
              *We informed USACE Pittsburgh personnel of the FAR clauses that were not included. USACE
              Pittsburgh personnel added these clauses to the contract modifications on November 12, 2009.
              “Y” means the contract or base contract appropriately included the clause.
              “N” means the contract or base contract inappropriately excluded the clause.
              A blank cell indicates a clause that does not apply to the contract or base contract.


                                                                                 15
Commander, U.S. Army Corps of Engineers, Pittsburgh
District Comments




                               16
Click to add JPEG file




               17
Click to add JPEG file




               18
Click to add JPEG file




               19
Click to add JPEG file




               20
                          Final Report
                           Reference




                         Revised
                         Pages 9 and 15




Click to add JPEG file




               21
22
